Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Long Term Care Ombudsman Program:
          Overall Capacity




                   JUNE GIBBS BROWN
                    Inspector General

                       MARCH 1999
                      OEI-02-98-00351
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee Dunn, Deputy Regional Inspector General. Principal OEI
staff included:

REGION                                                  HEADQUARTERS

Demetra Arapakos, Project Leader                        Susan Burbach, Program Specialist

Vincent Greiber

Ellen Vinkey




       To obtain copies of this report, please call the New York Regional Office at 212/ 264-2000.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                       EXECUTIVE SUMMARY

PURPOSE

        To describe the overall capacity of State Long Term Care Ombudsman programs to
        promote and monitor quality of care in nursing homes.

BACKGROUND

        While many studies indicate that changes in law and regulations may have had a positive
        effect on improving the environment and overall health care of nursing home patients,
        recent reports by the Health Care Financing Administration (HCFA) and the General
        Accounting Office have raised serious concerns about patients’ care and well-being. The
        Senate Special Committee on Aging held hearings in the summer of 1998 on these results.
        Committee staff requested the Office of Inspector General (OIG) to examine the issue of
        nursing home quality of care. At the same time, we undertook additional studies aimed at
        assessing the quality of care in nursing homes. This report examines the capacity of the
        Ombudsman program to monitor and promote quality of care. Future OIG reports will
        address trends in reported abuse of nursing home residents, the nursing home survey and
        certification process, and the availability of survey results.

        In response to growing concerns about poor quality care in nursing homes and to protect
        the interests of residents, the State Long Term Care Ombudsman program was
        established in the 1978 Older Americans Act. The ombudsmen advocate on behalf of
        residents of long term care facilities to ensure they have a strong voice in their own
        treatment and care. It operates in all fifty States and in hundreds of local communities,
        using both paid and volunteer staff.

        We examined the Ombudsman program in the 10 States with the largest nursing home
        population. We analyzed 1997 program data from the National Ombudsman Reporting
        System (NORS), reviewed written program procedures, and conducted phone interviews
        with State and local ombudsmen, as well as State Unit on Aging Directors.

FINDINGS

The Ombudsman Approach is Distinct From and Complements Other Nursing
Home Monitoring Programs

        Discussions with State and local ombudsmen, as well as State Aging Unit Directors,
        emphasize the uniqueness of the Ombudsman program. In contrast to other programs,
        ombudsmen lack enforcement and regulatory oversight authorities. As independent
        advocates, they work solely on behalf of residents and are able to mediate between these
        residents and nursing home staff on an informal level. Furthermore, a routine nursing

                                          )))))))))))
LTC Ombudsman Program: Overall Capacity        1                                      OEI-02-98-00351
        home presence is essential to the role of the ombudsman since it provides residents with
        the opportunity to develop personal and confidential relationships with ombudsmen staff
        and creates a comfortable environment for registering complaints. Finally, the program is
        also distinct in its reliance on volunteers.

The Program’s Overall Capacity to Monitor and Promote Nursing Home Care
Appears Limited

        A number of factors appear to limit the capacity of the Ombudsman program. First, the
        program is limited by staffing constraints. Staffing levels among the 10 States vary
        considerably, ranging from a ratio of 5,003 beds per paid staff person in Florida, to 1,115
        beds per paid staff person in California. Also, a majority of State and local ombudsmen
        (six and seven respectively) identify insufficient program staffing as an obstacle which
        detracts from their program’s effectiveness.

        Insufficient program staffing is particularly evident in the limited extent to which
        ombudsmen make regular nursing home visits. In the nine States that make such visits,
        volunteers are generally assigned to just one home and are able to visit this home on a
        weekly basis. However, most nursing homes in the 10 States do not have volunteers
        assigned to them, and these homes are visited just once or twice a year for no longer than
        one to three hours. Furthermore, in four States there are nursing homes that never have
        regular visits by volunteers or by paid staff.

        The capacity of the Ombudsman program is additionally limited by the lack of a common
        standard for responding to and resolving complaints; consequently, staff in some States
        are not consistently responding to and resolving complaints in a timely manner.
        Moreover, ombudsman advocacy and outreach efforts in the 10 States are inconsistent,
        and half of State and local ombudsmen say their program lacks adequate support. Finally,
        while the National Ombudsman Reporting System (NORS) developed in 1995 has
        improved the program’s data reporting capacity, it lacks some important performance
        measurement data.

Collaboration With Other Monitoring Programs Enhances the Capacity of
Ombudsmen

        Both State and local ombudsmen, as well as State Aging Unit Directors, believe that
        collaboration is crucial to enhancing their capacity to improve the life of nursing home
        residents. However, ombudsmen would like better collaboration with State surveyors.
        Despite the requirement that they be notified of inspection dates, two ombudsmen say they
        are not notified. Furthermore, ombudsman and survey and certification data for 1997
        show that ombudsmen staff accompanied surveyors just 61 percent of the time.

RECOMMENDATIONS

        Ombudsmen, with their unique combination of functions-- visitation, complaint and crisis

                                          )))))))))))
LTC Ombudsman Program: Overall Capacity        2                                       OEI-02-98-00351
        response, and advocacy-- play an important role in assuring quality of care in nursing
        homes. We therefore believe that the program limitations we have identified in this
        inspection must be addressed.

        We recommend that the Administration on Aging work with States to strengthen the
        Ombudsman program. In particular, we suggest they:

                 <	       develop guidelines for a minimum level of program visibility that include
                          criteria for the frequency and length of regular visits, as well as a ratio of
                          Ombudsman program staff to long term care beds;

                 <	       further highlight strategies for recruiting, training, and supervising more
                          volunteers;

                 <        develop guidelines for complaint response and resolution times;

                 <	       continue to strengthen the program’s data reporting system, including
                          ensuring that all State ombudsmen understand and use the definitions in the
                          system and train local ombudsmen and volunteers in standard utilization;
                          and

                 <	       establish ways in which Ombudsman programs can enhance collaboration
                          with the survey and certification agency.

        We recognize that in order to implement these recommendations, and to fulfill the
        Ombudsman program mission as outlined in the Older Americans Act, additional funding
        may be required. In particular, it may be necessary to find ways to increase the number of
        paid and volunteer ombudsmen. As noted earlier, the Institute of Medicine recommends
        one full-time equivalent ombudsman staff person for every 2,000 long term care facility
        beds in each State, a standard which not all States meet.

        The President’s recent nursing home initiative highlights the importance of improving the
        quality of care provided to vulnerable nursing home residents. We believe that
        strengthening the Ombudsman program will significantly contribute to this important
        effort.

AGENCY COMMENTS

        We received comments on the draft report from the Administration on Aging (AoA) and
        the Health Care Financing Administration (HCFA). They concur with our
        recommendations.

        The AoA suggests two modifications to our recommendations. First, it points out its
        ongoing efforts through training and technical assistance to work with States in the
        effective use of volunteers. In acknowledgment of these efforts, we have changed the

                                             )))))))))))
LTC Ombudsman Program: Overall Capacity           3                                          OEI-02-98-00351
        recommendation to say that AoA should further highlight and promote strategies for
        volunteer programs. Second, the AoA reports that while they work closely with
        ombudsmen to understand NORS, more could be done to promote a better understanding
        of the system. We have therefore broadened our recommendation to include the need for
        a common understanding and use of NORS definitions. We also continue to believe that
        the system could be strengthened by adding performance-based data such as complaint
        response and resolution times.

        Some parts of the report were additionally modified in response to AoA’s technical
        comments. The full comments are presented in Appendix A.




                                          )))))))))))
LTC Ombudsman Program: Overall Capacity        4                                     OEI-02-98-00351
                    TABLE OF OF CONTENTS


                                                                                                                         PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


FINDINGS

      Ombudsman Approach Distinct and Complementary . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Overall Capacity of Program Appears Limited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Collaboration with Other Programs Enhances Capacity . . . . . . . . . . . . . . . . . . . . . . . . 15


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


APPENDIX

    Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19





                                                      )))))))))))
LTC Ombudsman Program: Overall Capacity                    5                                                      OEI-02-98-00351
                                 INTRODUCTION

PURPOSE

        To describe the overall capacity of the State Long Term Care Ombudsman program to
        promote and monitor quality of care in nursing homes.

BACKGROUND

        While many studies indicate that changes in law and regulations may have had a positive
        effect on improving the environment and overall health care of nursing home patients,
        recent reports by the Health Care Financing Administration (HCFA) and the General
        Accounting Office have raised serious concerns about patients’ care and well-being. The
        Senate Special Committee on Aging held hearings in the summer of 1998 on these results.
        Committee staff requested the Office of Inspector General (OIG) to examine the issue of
        nursing home quality of care. At the same time, we undertook additional studies aimed at
        assessing the quality of care in nursing homes. This report examines the capacity of the
        Ombudsman program to monitor and promote quality of care. Future OIG reports will
        address the trend in reported abuse of nursing home residents, the nursing home survey
        and certification process, and the availability of survey results.

        In 1987, Congress passed major nursing home reform legislation with the Omnibus
        Reconciliation Act of 1987 (OBRA 1987). This legislation required nursing homes with
        Medicare and Medicaid residents to comply with specific quality of care standards by
        providing “services and activities to attain or maintain the highest practicable physical,
        mental, and psychosocial well-being of each resident.” More than a decade later, concerns
        still exist about the quality of care provided in nursing homes.

Ombudsman Program

        A nursing home is a long term care residential facility for individuals with physical or
        mental impairments that prevent them from living independently. A nursing home provides
        its residents with a room, meals, assistance with daily living activities, and medical care.
        According to data provided in State ombudsman reports, in 1996 there were 18,066
        nursing homes and 1,845,791 nursing home beds. Medicaid payments to nursing homes
        that year totaled $29.6 billion, while Medicare payments totaled $10.6 billion.

        In response to growing concerns about poor quality care in nursing homes and to protect
        the interests of residents, the State Long Term Care Ombudsman program was established
        in 1978 in the Older Americans Act. The ombudsmen advocate on behalf of residents of all
        long term care facilities, including nursing homes, to ensure they have a strong voice in
        their own treatment and care.


                                          )))))))))))
LTC Ombudsman Program: Overall Capacity        6                                       OEI-02-98-00351
        The Ombudsman program operates in all fifty States, the District of Columbia, and Puerto

        Rico, and in hundreds of local communities, and uses both paid and volunteer staff. The

        program receives funding from Federal, State and local levels, and is overseen by the

        Administration on Aging (AoA). Most State ombudsmen operate within the State Unit on

        Aging (SUA), some of which are independent while others are part of a larger State

        umbrella agency. The remaining State Ombudsman programs are located organizationally

        outside of the SUA. These programs are operated by non-profit organizations or legal

        services agencies, or they are freestanding Ombudsman programs. 


        State Ombudsman programs have multiple functions that are mandated by law, many of

        which are closely tied to ensuring quality care for long term care residents. They include:


        C        identifying, investigating, and resolving complaints;

        C        protecting the legal rights of patients; 

        C        advocating for systemic change; 

        C        providing information and consultation to residents and their families; and,

        C        publicizing issues of importance to residents


        Several national associations have been established to support State Ombudsman programs. 

        One of these, the National Long Term Care Ombudsman Resource Center, was established

        in 1993. This Center is funded by AoA and is run by the National Citizens’ Coalition for

        Nursing Home Reform (NCCNHR) in cooperation with the National Association of State

        Units on Aging (NASUA). It serves as a clearinghouse for information on the national

        Ombudsman program. One of its functions is to identify issues of significance to the

        Ombudsman program, including ways the ombudsman can improve quality of care in

        nursing homes; it also trains ombudsmen and provides technical assistance. Additionally,

        the National Association for Long Term Care Ombudsman Programs (NASOP) was

        established by State ombudsmen to provide a common voice for all State programs and

        promote the sharing of ideas and experience among ombudsmen.


Ombudsman Data

        States have recently started to collect and report data under a new system. In 1995, States
        began to systematically collect and report data under the National Ombudsman Reporting
        System (NORS). Prior to NORS, States reported data to AoA which was of limited use
        due to the lack of common definitions for key data elements. The NORS was created in
        response to earlier recommendations made by the General Accounting Office and the
        Office of Inspector General and was developed by the ombudsmen themselves. It includes
        more specific data elements than were reported before NORS. For example, it separates
        complaints by type and distinguishes between complaints and complainants. In 1995, 29
        States reported under NORS, and all States did so annually beginning in 1996.

        The first Long Term Care Ombudsman Program Annual Report was also published in
        1995. This report utilizes NORS data for 29 programs and pre-NORS data for the other
        23 programs, and describes the operation of Ombudsman programs nationwide. The report


                                           )))))))))))
LTC Ombudsman Program: Overall Capacity         7                                        OEI-02-98-00351
        also describes the broad range of ombudsman activities, including training and technical
        assistance programs, visitations, and community relations activities. The 1996 report,
        which provides complaint data for all states, was issued in January 1998.

Prior Studies

        Many studies have reported on the progress and impact of the Ombudsman program. One
        of the most recent, “Real People, Real Problems,” published in 1995 by the National
        Academy of Sciences’ Institute of Medicine, reported on State compliance, conflicts of
        interest, effectiveness, resources, and the need for future expansion of the program. It
        found that, overall, the Ombudsman program is effective. It also reported lack of access to
        ombudsman services by residents and their families, disparities in ombudsman visitation
        patterns and service provisions, and uneven availability of ombudsman legal services.

        Additionally, the Inspector General issued several reports on the Ombudsman program in
        1991 and 1992. First, “Successful Ombudsman Programs,” (OEI-02-90-02120), the main
        report in a series, found that successful programs are highly visible and obtain adequate
        funding and support. Furthermore, “State Implementation of the Ombudsman
        Requirements of the Older Americans Act,” (OEI-02-91-01516), found, among other
        things, that State program staffing and long term care facility visitation varies significantly,
        and that ombudsmen use many methods to increase their visibility.

        In July, 1998, the Secretary of the Department of Health and Human Services released a
        report to Congress on nursing home care. While the report found that some progress had
        been made in nursing home care, particularly in the more appropriate use of physical
        restraints and drugs, it also indicated that further improvements were needed. In
        conjunction with this report, the President announced a new nursing home initiative to
        provide enhanced protection to residents and target needed improvements in care.

        Also in July, 1998, the General Accounting Office (GAO) released a report on California
        nursing homes. This report found that care problems still exist, despite Federal and State
        oversight. Among problems described are poor nutrition, dehydration, and pressure sores.

METHODOLOGY

        We used three methods for this inspection. First, we analyzed 1997 data from the National
        Ombudsman Data Reporting System (NORS) in order to determine the extent of
        Ombudsman program staffing and activities. Second, we reviewed written Ombudsman
        program procedures to assess program processes and standards. Third, we conducted
        telephone interviews with State and local ombudsmen, as well as with State Unit on Aging
        Directors, to obtain their perspectives on program strengths and weaknesses.

Sample Selection

        We selected a purposive sample of 10 States for this inspection. These ten States are New

                                           )))))))))))
LTC Ombudsman Program: Overall Capacity         8                                          OEI-02-98-00351
        York, California, Texas, Ohio, Illinois, Pennsylvania, Massachusetts, Florida, New Jersey,
        and Tennessee. They represent 55.8 percent of total skilled nursing beds and 53 percent of
        all Ombudsman program complaints nationally for 1996. They also account for nearly half
        (43 percent) of all Ombudsman programs nationwide and half of all program funding.

Procedures Review

        We obtained and reviewed written procedures for all 10 State Ombudsman programs.
        Using a structured review guide, we examined these procedures to determine the different
        processes used by ombudsmen to monitor and promote quality of care in nursing homes.
        We also looked for any standards mandated for these processes, such as complaint
        response times, and discussions of linkages with other nursing home programs in the State.

Interviews

        We conducted a total of 30 structured interviews for this inspection. In each of the 10
        States we spoke with the State ombudsman, one local program ombudsman, and the
        Director of the State Unit on Aging (except for one State, when we interviewed the Deputy
        Director). We selected these three groups of respondents to obtain their different
        perspectives of the program and looked for consensus among the groups in our analysis.

        In selecting ombudsmen from local programs to interview, we chose individuals from a
        variety of local program structures. Five of the local programs represented are operated by
        Area Agencies on Aging (AAAs), while the other five are operated by non-profit or legal
        service agencies. Furthermore, five of the local programs are rural and five are urban.

        During our interviews with the ombudsmen, we discussed the processes their programs use
        to impact quality of care in nursing homes, as well as their opinions on which processes are
        most effective. Additionally, we discussed the factors that either facilitate or hinder their
        effectiveness. In this report, to differentiate between respondent groups, we will refer to
        “State ombudsmen” and “local ombudsmen.” We will use the term “ombudsman” to refer
        to both the Ombudsman program and the individual.

        During our interviews with the Directors of State Units on Aging, we discussed ways in
        which the Ombudsman program is linked to other nursing home programs. This discussion
        included both programs within the Aging Unit and programs outside the Unit.

Data Analysis

        We analyzed 1997 NORS data, looking specifically at data on program staffing, visitation
        rates, advocacy activities, and coordination with survey and certification agencies.

        This inspection was conducted in accordance with the Quality Standards for Inspections
        issued by the President’s Council on Integrity and Efficiency.



                                          )))))))))))
LTC Ombudsman Program: Overall Capacity        9                                       OEI-02-98-00351
                                          FINDINGS

The ombudsman approach is distinct from and complements
other nursing home monitoring programs
        The Ombudsman program has several functions to promote and monitor quality of care in
        nursing homes. First, ombudsman staff identify and resolve complaints, typically by
        contacting the complainant and informally mediating with residents and nursing home staff
        to reach some resolution. Second, ombudsmen also make regular visits to nursing homes,
        during which they speak with residents and make themselves available to answer questions
        and listen to concerns. Lastly, ombudsmen engage in a variety of different activities to
        advocate for improved nursing home care.

        Discussions with State and local ombudsmen, as well as State Aging Unit Directors,
        emphasize the uniqueness of the Ombudsman program. In contrast to other programs,
        ombudsmen lack enforcement and regulatory oversight authorities. As independent
        advocates, they work solely on behalf of residents and are often the only voice these
        residents have in their own care. Says one State ombudsman, her program is the “only
        certified, unrestricted organization” that can go into a nursing home on a resident’s behalf.
        Furthermore, by taking the concerns and complaints of residents directly to nursing home
        staff, they are able to mediate between both parties on an informal and amicable level.

        Unlike many other programs, an ongoing, routine nursing home presence is essential to
        the role of the ombudsman. In fact, most State ombudsmen (six) believe this presence is
        the most important part of their program. This presence provides residents with the
        opportunity to develop personal and confidential relationships with ombudsmen. It also
        gives ombudsmen the chance to identify and address individual issues before they become
        larger, systemic problems and creates a comfortable environment for registering
        complaints. The Ombudsman program is also distinct from other programs in its reliance
        on volunteers, who are needed to achieve an ongoing presence in nursing homes.

The program’s overall capacity to monitor and promote
nursing home care appears limited
The program is limited by staffing constraints

        Staffing levels among the 10 States vary considerably, as shown in Table 1 below.
        Ombudsman staff cover from as many as 5,003 nursing home beds per paid staff person in
        Florida, to as few as 1,115 beds in California (these numbers do not include licensed board
        and care and similar facilities for which the Ombudsman programs are also responsible).
        Due to its relatively high number of volunteers, California also has the lowest ratio of beds


                                           )))))))))))
LTC Ombudsman Program: Overall Capacity         10                                      OEI-02-98-00351
        per volunteer (79 to 1) among the 10 States. These numbers do not reflect actual nursing
        home coverage, however, since most State programs assign each volunteer to just one
        nursing home or one board and care home; therefore, not all nursing home beds are
        covered by volunteers.

                                             Table 1
                                  Ombudsman Program Staffing, 1997

           State       # Nursing          # Paid      Beds per     # Volunteers*    Beds per
                        Homes              Staff      Paid Staff                    Volunteer
             CA          1,468             121             1,115       1,691            79
             FL            716             16              5,003       214             374
             IL          1,102             33              3,344       314             325
            MA             579             37              1,566       328             177
             NJ            354             18              2,752        64             774
            NY             668             25              4,618       600             192
             OH          1,456             59              2,173       200             641
             PA            807             50              1,946       276             354
             TN            352             12              3,301       211             184
             TX          1,161             46              2,753       761             166
           *Includes both certified and other volunteers                  Source: 1997 NORS data

        No minimum staffing ratios are required by law. However, a 1995 Institute of Medicine
        study on the Ombudsman program recommends a standard staffing ratio of 1 paid
        ombudsman staff person per 2,000 long term care facility beds (including both nursing
        home and board and care home beds). Only 1 of the 10 sample States, Massachusetts,
        meets this standard when counting both nursing home and board and care beds.

        A majority of State and local ombudsmen identify insufficient program staffing as an
        obstacle which detracts from their program’s effectiveness. Six State and seven local
        ombudsmen believe their program does not have enough paid staff. Similarly, seven of
        each say they have an insufficient number of volunteers. Finally, many ombudsmen also
        say they would like better supervision and training of the volunteers they have.

Extent of regular visits is limited

        Insufficient program staffing is particularly evident in the limited extent to which
        ombudsmen make regular nursing home visits, as illustrated in Table 2 below. First, while


                                                 )))))))))))
LTC Ombudsman Program: Overall Capacity               11                                     OEI-02-98-00351
        9 of the 10 States make regular visits, in 4 States there are nursing homes that are never
        visited by paid staff or volunteers. Second, despite AoA instructions which define regular
        visits as weekly, monthly, or quarterly, most nursing homes in these 9 States are usually
        visited only once or twice a year and for no longer than 1 to 3 hours. While volunteers do
        visit homes more frequently since they are generally assigned to just one nursing home and
        visit this home on a weekly basis, there are not enough volunteers to cover all nursing
        homes.

        It is notable that Florida, which has the highest number of beds per paid staff, also has the
        lowest percentage of regular nursing home visits. Additionally, Florida has the lowest
        program funding among the 10 States, with approximately five dollars spent per long-term
        care bed (compared to the 10 State average of almost 18 dollars).

                                                Table 2
                                   Nursing Homes Visited Annually,
                                  Not in Response to a Complaint, 1997

                                    State           % Nursing Homes
                                                    Visited At Least
                                                      Once a Year*
                                       CA                    100%
                                       FL                    65 %
                                       IL                     88%
                                       MA                     94%
                                    NJ**                       0%
                                       NY                    100%
                                       OH                    100%
                                       PA                    100%
                                       TN                    100%
                                       TX                     80%
                                   C        Most visits last from 1 to 3 hours
                                   **	    While New Jersey does not make regular nursing home
                                          visits, staff do make periodic, surprise visits when
                                          warranted.
                                   Source: 1997 NORS data

        Ombudsman programs in the sample States rely on volunteers primarily to make regular
        nursing home visits. Due to this reliance on volunteers, ombudsmen generally agree that a
        strong volunteer component is crucial to their program’s success; one says that volunteers

                                                )))))))))))
LTC Ombudsman Program: Overall Capacity              12                                 OEI-02-98-00351
        act as her “eyes and ears” in nursing homes.

        In all 10 States, ombudsman staff make more frequent visits to nursing homes that are
        chronically substandard, where residents are routinely poorly treated. Several ombudsmen
        mention that an ongoing presence in substandard homes is particularly important since
        problems in these homes are often cyclical; they tend to fall in and out of compliance.

Ombudsman programs lack a common standard for response and resolution
times

        Only 2 States’ procedures specify any kind of standard at all. Without such a standard,
        ombudsman staff in some States are not consistently responding to complaints in a timely
        manner. Typically, once a complaint is received, ombudsman staff initially respond by
        contacting the complainant. Two ombudsmen say it takes them an average of five days to
        respond to a complaint, two say they take four days, and another five say they respond to
        complaints in just one or two days. In contrast, the remaining ombudsman says that it
        takes an average of 30 days for her program staff to respond to complaints.

        All States, however, use a separate process for handling life-threatening complaints such
        as physical abuse. Ombudsmen do not investigate these complaints but instead usually
        refer them directly to the adult protective services and/or the survey and certification
        agencies. Most States’ procedures mandate that this referral take no more than 24 hours.

        Complaint resolution time also varies somewhat among the 10 States. In most States,
        ombudsmen resolve complaints by working informally with the resident and nursing home
        staff to reach an agreement between both parties. While 6 State ombudsmen report that
        complaints are typically resolved in a week or less, 2 State ombudsmen say they take an
        average of 90 days to resolve complaints. (The two remaining State ombudsmen are
        unable to specify an average resolution time). Only one State’s written procedures
        mandate a standard resolution time, saying that all cases should be closed within 60 days.
        In four States, ombudsmen report that certain complaints are eventually closed without a
        resolution being reached.

Outreach and advocacy efforts are inconsistent

        As Table 3 below shows, ombudsman staff devote varying amounts of time to outreach
        and advocacy activities, with some spending relatively little time on community education,
        work with the media, work on laws and policy, and nursing home staff training. Overall,
        California appears to be the most active of the ten States in outreach and advocacy, and
        New Jersey and Tennessee the least active. Despite the variation in time devoted these
        activities, all 10 ombudsmen stress the importance of advocating for systemic change in
        order to improve nursing home care.




                                          )))))))))))
LTC Ombudsman Program: Overall Capacity        13                                     OEI-02-98-00351
                                              Table 3
                             Other Ombudsman Program Staff Activities, 1997

              State       # Community            Work w/ Media               Work on          # Nursing Home
                            Education            (# Interviews &              Laws &           Staff Training
                             Sessions            Press Releases)            Govt. Policy1         Sessions
               CA               1,621                     661                   10%                  484
               FL                176                      143                   27%                  134
                IL               177                      890                   10%                  114
               MA                621                       15                   30%                   94
               NJ                  0                       20                   20%                  170
               NY                313                      665                   25%                  204
               OH                791                      580                   20%                  437
               PA                313                      152                   20%                  602
               TN                 69                       55                   10%                   64
               TX                537                      599                   10%                  631
        1
            Percent of State-level efforts of total paid staff time only.             Source: 1997 NORS data

Ombudsmen say their program lacks adequate support

        Half of State and local ombudsmen believe their program’s lack of support in the State
        diminishes its capacity and limits their ability to influence nursing home policies. One
        State ombudsman believes that the limited visibility of her program curtails her regulatory
        ability and impacts her overall effectiveness to resolve complaints; another believes that
        restrictions from her umbrella agency on activities such as publishing statements and
        serving on committees limit her overall effectiveness. On the local level, one ombudsman,
        expressing the opinion of others, notes that due to changing priorities within the Area
        Agency on Aging (AAA), “there are multiple demands at the regional level that distract
        from the effectiveness of the program.” Another relate’s her program’s lack of support to
        a diminished impact on the survey and certification process, because the surveyors are not
        sure how much weight to place on the information provided by the ombudsman.

Ombudsman data reporting systems are still being improved

        The Administration on Aging (AoA) and State ombudsmen are working to improve the
        Ombudsman data reporting system. Prior to 1995, the reporting system consisted of only
        30 data elements and lacked common definitions. The new system, called the National
        Ombudsman Reporting System (NORS), has over 200 data elements and standard


                                                     )))))))))))
LTC Ombudsman Program: Overall Capacity                   14                                            OEI-02-98-00351
        definitions.

        Ombudsmen in the 10 sample States are still getting accustomed to the new reporting
        format. However, ombudsmen generally evaluate NORS highly: six rate it excellent or
        good for comprehensiveness, accuracy, and usefulness. Two in particular say that “there
        are still grey areas” and that they are not always sure how to report certain data.
        Exemplifying this concern, we found that the 10 ombudsmen still do not all count
        complaints the same way. Half say they count a complaint when it is completely resolved,
        and another half when it is first received.

        While NORS appears to have improved the data reporting capacity of the Ombudsman
        program and includes comprehensive data on complaints, it does lack other important
        performance measurement data. For example, no data are collected on response and
        resolution times. Furthermore, despite the decision of Ombudsmen to collect data on
        cases only after they are closed, the number of cases that remain open at the close of one
        year are not reported into the next, making it difficult to determine the number of cases
        that are currently open.

Collaboration with other monitoring programs enhances the
capacity of ombudsmen
Collaboration with other programs is seen as important

        Both State and local ombudsmen, as well as State Aging Unit Directors, believe that
        collaboration is crucial to enhancing their capacity to improve the life of nursing home
        residents. In fact, several of the States’ written program procedures have charts and/or
        descriptions of how the ombudsman is linked with other long term care programs. Four
        State ombudsmen specifically cite collaboration with and support from other agencies as
        one of the main strengths of their program. Similarly, State Aging Unit directors believe
        that while different programs may have different perspectives, all share the same agenda
        of ensuring good nursing home care.

        All State and local ombudsmen report collaborating with a number of organizations on a
        regular basis to promote quality care in nursing homes. First, all work with their State’s
        survey and certification agency to identify and eliminate nursing home problems.
        Ombudsmen also collaborate with legal support groups for advice on complaint cases.
        Additionally, all have an ongoing relationship with Adult Protective Services, who they
        work with on abuse cases. Most also report working with senior citizen groups to
        advocate for resident rights, as well as with Medicaid and Medicare program
        representatives, to ensure residents get the benefits that they’re entitled to have. Finally,
        in six States ombudsmen refer cases where they suspect health care fraud to the Attorney
        General.

However, ombudsmen would like better collaboration with State surveyors


                                           )))))))))))
LTC Ombudsman Program: Overall Capacity         15                                       OEI-02-98-00351
        While ombudsmen in all 10 States believe collaboration with State surveyors is important,
        many believe this collaboration can be improved. One of the main ways ombudsmen
        work with surveyors is to participate in annual nursing home inspections. However,
        despite the requirement that they be notified of inspection dates, two ombudsmen say they
        are not consistently notified. Furthermore, ombudsman data for 1997 show that they
        participated in a total of approximately 5,100 surveys in that year; survey and certification
        data, however, indicate that in 1997 around 8,400 surveys were conducted in the 10
        States. Thus, ombudsmen accompanied surveyors just 61 percent of the time.

        Ombudsmen say their relationship with survey and certification staff is most productive
        when they are routinely given advance notice about upcoming inspections, and when they
        are asked for their input about the quality of care being provided at facilities. They also
        believe it is important to work with the surveyors during their inspection and to attend exit
        conferences held with facility administrators at the end of the inspection.

        Ombudsmen characterize their relationship with State survey and certification staff in
        different ways. Four say this relationship is one in which they are currently working out
        problems. Four others indicate that the relationship is basically a good one. Furthermore,
        some ombudsmen also say that there is a healthy tension and mutual respect between the
        two functions.




                                          )))))))))))
LTC Ombudsman Program: Overall Capacity        16                                       OEI-02-98-00351
                       RECOMMENDATIONSS

        Ombudsmen, with their unique combination of functions-- visitation, complaint and crisis
        response, and advocacy-- play an important role in assuring quality of care in nursing
        homes. We therefore believe that the program limitations we have identified in this
        inspection must be addressed.

        We recommend that the Administration on Aging work with States to strengthen the
        Ombudsman program. In particular, we suggest they:

        <	       develop guidelines for a minimum level of program visibility that include criteria
                 for the frequency and length of regular visits, as well as a ratio of Ombudsman
                 program staff to long term care beds;

        <	       further highlight and promote strategies for recruiting, training, and supervising
                 more volunteers;

        <        develop guidelines for complaint response and resolution times;

        <	       continue to strengthen the program’s data reporting system, including ensuring
                 that all State ombudsmen understand and use the definitions in the reporting
                 system and train local ombudsmen and volunteers in standard utilization; and

        <	       establish ways in which Ombudsman programs can enhance collaboration with the
                 survey and certification agency.

        We recognize that in order to implement these recommendations, and to fulfill the
        Ombudsman program mission as outlined in the Older Americans Act, additional funding
        may be required. In particular, it may be necessary to find ways to increase the number of
        paid and volunteer ombudsmen. As noted earlier, the Institute of Medicine recommends
        one full-time equivalent ombudsman staff person for every 2,000 long term care facility
        beds in each State, a standard which not all States meet.

        The President’s recent nursing home initiative highlights the importance of improving the
        quality of care provided to vulnerable nursing home residents. We believe that
        strengthening the Ombudsman program will significantly contribute to this important
        effort.

AGENCY COMMENTS

        We received comments on the draft report from the Administration on Aging (AoA) and
        the Health Care Financing Administration (HCFA). They concur with our
        recommendations.

                                           )))))))))))
LTC Ombudsman Program: Overall Capacity         17                                        OEI-02-98-00351
        The AoA suggests two modifications to our recommendations. First, it points out its
        ongoing efforts through training and technical assistance to work with States in the
        effective use of volunteers. In acknowledgment of these efforts, we have changed the
        recommendation to say that AoA should further highlight and promote strategies for
        volunteer programs. Second, the AoA reports that while they work closely with
        ombudsmen to understand NORS, more could be done to promote a better understanding
        of the system. We have therefore broadened our recommendation to include the need for
        a common understanding and use of NORS definitions. We also continue to believe that
        the system could be strengthened by adding performance-based data such as complaint
        response and resolution times.

        Some parts of the report were additionally modified in response to AoA’s technical
        comments. The full comments are presented in Appendix A.




                                          )))))))))))
LTC Ombudsman Program: Overall Capacity        18                                    OEI-02-98-00351
                                      APPENDIX A

        In this appendix, we present in full the comments from the Administration on Aging and
        the Health Care Financing Administration.




                                          )))))))))))
LTC Ombudsman Program: Overall Capacity        19                                   OEI-02-98-00351
                                          )))))))))))
LTC Ombudsman Program: Overall Capacity        20       OEI-02-98-00351
                                          )))))))))))
LTC Ombudsman Program: Overall Capacity        21       OEI-02-98-00351
                                          )))))))))))
LTC Ombudsman Program: Overall Capacity        22       OEI-02-98-00351
                                          )))))))))))
LTC Ombudsman Program: Overall Capacity        23       OEI-02-98-00351
                                          )))))))))))
LTC Ombudsman Program: Overall Capacity        24       OEI-02-98-00351
